Office of Audits
Report No. AUD-11-003


Verification of the FDIC’s Data
Submissions through the Governmentwide
Financial Report System as of
September 30, 2010




                            December 2010
Federal Deposit Insurance Corporation                                                                 Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General



DATE:                                     December 14, 2010

MEMORANDUM TO:                            Bret D. Edwards
                                          Director, Division of Finance

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Attestation Report Entitled, Verification of the FDIC’s Data
                                          Submissions through the Governmentwide Financial Report
                                          System as of September 30, 2010 (Report No. AUD-11-003)


This report presents the results of our agreed-upon procedures (AUP) attestation engagement
related to the FDIC’s financial data transmitted to the Department of the Treasury (Treasury)
Governmentwide Financial Report System (GFRS) to satisfy requirements for data submissions
as of September 30, 2010, as discussed below. The report is intended solely for use by the
Treasury, the FDIC, and only those parties that have an adequate understanding of the criteria
governing the procedures performed. The objective of the engagement was to verify that FDIC
summary accounting information, prepared using United States Standard General Ledger
(USSGL) accounts, agreed with summary information, prepared using the FDIC’s general
ledger accounts,1 and was accurately entered into the GFRS financial statement modules as of
September 30, 2010 and for the fiscal year then ended.2 We conducted this engagement in
accordance with standards for AUP attestation engagements included in generally accepted
government auditing standards.

The AUPs were discussed with the Division of Finance (DOF) in our assignment’s planning
stage and were mutually acceptable to DOF and the Office of the Inspector General (OIG). We
specified in those discussions that the following areas are not covered by our AUPs:

(1) Intragovernmental material differences. The United States Office of Management and
    Budget (OMB) rescinded this requirement on August 25, 2008.

(2) GFRS footnote disclosures, which are formatted to accommodate the Treasury’s GFRS
    standard footnote template. The GFRS footnote template differs from the FDIC’s
    December 31 year end footnote disclosures. The FDIC prepares footnotes for its calendar
    year end financial statements in accordance with U.S. generally accepted accounting
    principles, which the FDIC’s independent auditor, the Government Accountability Office


1
  The GFRS submissions are a consolidation of the FDIC Deposit Insurance Fund (DIF), Federal Savings and
Loan Insurance Corporation (FSLIC) Resolution Fund (FRF), and FRF-Resolution Trust Corporation (RTC)
funds.
2
  The FDIC uses a calendar year for its annual financial statements.
    (GAO), has concluded apply to each of the FDIC’s funds for financial reporting and
    disclosure.

(3) Verification of the FDIC’s cross-walk process for transferring the FDIC’s general ledger
    amounts into the USSGL account structure to accommodate GFRS module reporting. We
    verified that summary amounts from the FDIC’s general ledger were reflected in the GFRS
    but did not verify the cross-walk process of determining which FDIC general ledger
    accounts are grouped and assigned new account classifications in the USSGL accounts.


BACKGROUND

Section 405 of the Government Management Reform Act3 of 1994 requires that the Secretary
of the Treasury annually prepare and submit to the President and the Congress audited financial
statements for the preceding fiscal year. Those statements must cover all accounts and
associated activities of the executive branch of the Federal Government. Section 114 of the
Budget and Accounting Procedures Act of 19504 requires each executive branch agency to
furnish financial and operational information as the Secretary of the Treasury may stipulate.

On June 17, 2010, the Treasury issued Transmittal Letter No. 658, Treasury Financial Manual
(TFM), which describes how agencies provide data for the Financial Report of the United
States Government (FR) using the GFRS. Among other things, the TFM includes the Financial
Management Service’s (FMS) fiscal year 2010 Closing Package methodology and the federal
intragovernmental transactions process.

The TFM requires all agencies to provide the FMS with fiscal year end data to be used to
prepare the FR. All agencies, including the FDIC, were required to submit their financial data
using the Closing Package process within the GFRS. The financial submissions are used to
link the agencies’ comparative, audited consolidated, department-level5 financial statements to
the FR. The Chief Financial Officer (CFO) of each verifying agency6 was required to prepare
and submit the Closing Package data for fiscal year 2010 and fiscal year 2009 within the GFRS
at the department level. Each CFO must verify the financial data submitted into the GFRS for
consistency with each agency’s comparative, audited consolidated, department-level financial
statements. The IG of each verifying agency, except those agencies with a year end other than
September 30, was required to opine on the Closing Package data entered into the GFRS by the
CFO. The FDIC falls within this exception of having a year end other than September 30, and
the FDIC OIG was not required to opine on the FDIC’s unaudited September 30, 2010 financial




3
  31 United States Code (U.S.C.) § 331(e)(1)).
4
  31 U.S.C. § 3513(a).
5
  The TFM requires that the GFRS capture each agency’s Closing Package information and link the agency’s
comparative, audited consolidated, department-level financial statements to the FR. The FDIC is included among
the agencies deemed to be departments in Figure 1 of the TFM.
6
  Verifying agencies are those required by the TFM to verify and submit a Closing Package and provide CFO
representations for federal intragovernmental activity and balances.



                                                      2
information.7 However, the TFM required the IGs to provide audit assurance on material line
items. As the FDIC’s principal auditor, the GAO agreed to perform this task for the FDIC.

The TFM did not require the FDIC OIG to perform, and we did not perform, a financial
statement audit, the objective of which is to provide an independent assessment of, and
reasonable assurance about, whether an entity’s financial condition, results, and use of
resources are presented fairly in accordance with recognized criteria.


RESULTS OF ATTESTATION

In accordance with our engagement, we were able to verify that the FDIC’s September 30,
2010 summary account information, prepared using the USSGL accounts, agreed with
summary information from the FDIC’s general ledger accounts and was accurately entered into
the GFRS financial statement modules. Further, we were able to verify that the FDIC’s
December 31, 2009 year end data submitted to the GFRS agreed with the FDIC’s
December 31, 2009 audited financial statements. The December 31, 2009 financial statements
were audited by the GAO and received unqualified opinions.

We applied GAO’s materiality threshold for its audit of the FDIC’s financial statements for the
year ending December 31, 2010 to the transactions reviewed during our attestation engagement.
Two adjustments to the FDIC general ledger balances at September 30, 2010 exceeded the
GAO materiality threshold of $1.7 billion. The first was a $42.6 billion adjustment made to
reclassify the credit entries to the Net Receivable asset account into the Liabilities Due to
Resolutions liability account. This entry was based on the specific identification of amounts
owed by the FDIC to receiverships that were being accounted for through the Net Receivable
asset account. The FDIC posts due-to and due-from amounts related to receiverships in the Net
Receivable asset account, thus netting the amounts. This reclassification separates the FDIC
assets generated in the form of amounts due to the FDIC from resolutions and the FDIC
liabilities created when the FDIC assumes obligations in the course of resolution activities. We
concluded that this entry was appropriate for GFRS reporting.

The second material amount involved a set of entries to reclassify Insurance and Guarantee
Program Liabilities. These entries were made through the GFRS Line Reclassification
Summary Report to ensure proper reporting of Insurance and Guarantee Program Liabilities
separately, as distinguished from the general grouping in Accounts Payable and Other
Liabilities account, for fiscal years 2009 and 2010. A $10.3 billion adjustment was made to the
previously reported September 30, 2009 Other Liabilities account, and a similar adjustment of
$7.9 billion was made to the September 30, 2010 Other Liabilities account. Both entries
reclassified the Insurance and Guarantee Program Liabilities portion of the Other Liabilities
account from Other Liabilities to the Insurance and Guarantee Program Liabilities account. In
June 2010, the FDIC received Treasury FMS guidance that requires accounting for the
Insurance and Guarantee Program Liabilities separately from Other Liabilities in the GFRS


7
 The Chief Financial Officers Act requires agency inspectors general (IG), including the FDIC IG, to perform an
annual audit of the agency’s financial statements, unless the GAO performs the audit. In accordance with
Section 17 of the Federal Deposit Insurance Act (FDI Act), GAO audits the FDIC’s financial transactions
annually.



                                                       3
account. We reviewed the Treasury FMS correspondence and the reclassification entries and
concluded that these adjustments were appropriate.

In our prior attestation engagement for the fiscal year ended September 30, 2009 GFRS
submissions, we noted that two FRF general ledger accounts, FRF Contributed Capital and
FRF Accumulated Deficit, required routine adjustments to correct the general ledger
accounting records. These annual adjustments were reportedly required because system
limitations precluded correcting the accounts in the general ledger. The adjustments in prior
years brought these accounts to the appropriate balances for the FDIC’s GFRS submissions and
annual audited financial statement reporting. A $7.5 billion amount had to be adjusted to each
of the FRF Contributed Capital and FRF Accumulated Deficit accounts, through journal entry,
to have the account balances properly reflected in the FDIC’s general ledger. Subsequent to the
September 30, 2009 fiscal year end attestation fieldwork, DOF initiated action to correct the
general ledger balances in the two accounts, and the periodic $7.5 billion adjustment was no
longer needed. As part of our fieldwork for this current attestation, we verified that the two
FRF accounts did not require adjusting to be stated appropriately, indicating that the corrective
action had been completed.


MANAGEMENT COMMENTS

We provided DOF a draft of this attestation report on December 2, 2010. On December 9,
2010, DOF suggested two minor editorial changes to the report, which we incorporated, and
advised us that it had no formal written comments.




                                               4
